Case l-8-3695, Document 20,1212L!2AL8,2461363, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,40 Foley Square, in the City of New York, on the
2l't day of December, two thousand and eighteen.

United States of America,

ORDER
Appellee,

DocketNo. 18-3695
v.
Naquan Reyes,
Defendant - Appellant.

Donna R. Newman moves to be relieved as counsel for the Appellant.

IT IS HEREBY ORDERED that the motion to be relieved is GRANTED. Andrew H.
Freifeld, Law Office of Andrew Freifeld, 30 Vesey Street, 6th Floor, New York, NY 10007 is
assigned as new counsel pursuant to the Criminal Justice Act, 18 U.S.C. $3006,4.. Attorney
Freifeld is directed to review Local Rule 12.2 regarding the filing of Form B and Local Rule 31.2
relarding proibdures for setting the filing dates for the submission of briefs.

For the Court:
Catherine O'Hagan Wolfe,

Clerk of Court

J

